            OFFICE OF
            INSPECTOR
            GENERAL
            UNITED STATES POSTAL SERVICE




      21st Century Post Office:
Aligning with the National Broadband
       Infrastructure Initiative

            Management Advisory




                                           January 23, 2012


Report Number DA-MA-12-002
                                                                         January 23, 2012

                                            21st Century Post Office: Aligning with the
                                            National Broadband Infrastructure Initiative

                                                           Report Number DA-MA-12-002




IMPACT ON:
U.S. Post Office Operations and                WHAT THE OIG RECOMMENDED:
Facilities.                                    We recommend the vice president,
                                               Facilities, explore partnerships with
WHY THE OIG DID THE AUDIT:                     commercial ISPs to increase broadband
This is part of a series of reports            coverage in unserved areas by offering
addressing the 21st Century Post Office.       a master lease agreement to Postal
Our objective was to assess the benefits       Service real estate and installing
of the U.S. Postal Service’s role in the       ―Wireless Fidelity Hotspots‖ in unserved
National Broadband Infrastructure              areas.
Initiative.
                                               WHAT MANAGEMENT SAID:
WHAT THE OIG FOUND:                            While management generally agreed
Based on our analysis of the technical,        that a public/private partnership could at
engineering, and business planning             some point further the interests of the
issues involved, we concluded that             National Broadband Infrastructure
for-profit Internet Service Providers          Initiative, management disagreed with
(ISPs) have provided thorough                  both recommendations, citing a need for
broadband coverage in the areas of the         significant funding to further
U.S. that would garner economic profit.        infrastructure development and
However, there are unserved areas              incentivize ISPs in rural markets.
within the U.S. — mostly in rural areas
— due, in large part, to the negative          AUDITORS’ COMMENTS
financial return involved when entering        We do not plan to pursue these
those markets.                                 recommendations through the formal
                                               audit resolution process and we believe
The private sector cannot change this          that offering a master lease agreement
broadband coverage gap alone. The              to such providers is preferable to the
Postal Service can assist the National         Postal Service’s current national
Broadband Infrastructure Initiative            agreement and will be instrumental in
through a public/private partnership with      developing an economic incentive to
commercial ISPs to provide facilities and      attract infrastructure providers to
land for the expansion of the broadband        unserved areas.
infrastructure. A public/private venture
could make ISP operations more                 Link to review the entire report
affordable for the underserved.
January 23, 2012

MEMORANDUM FOR:            TOM A. SAMRA
                           VICE PRESIDENT, FACILITIES




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Advisory – 21st Century Post Office: Aligning
                           with the National Broadband Infrastructure Initiative
                           (Report Number DA-MA-12-002)

This management advisory presents our analysis of advantages for the U.S. Postal
Service to align with the U.S. National Broadband Infrastructure Initiative (Project
Number 11YG027DA000). This self-initiated review addresses strategic risk.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Facilities, Environmental and Sustainability, or me at 703-248-2100.

Attachments

cc: David E. Williams
    Corporate Audit and Response Management
21st Century Post Office:                                                                                         DA-MA-12-002
 Aligning with the National Broadband
 Infrastructure Initiative

                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Recommendations .......................................................................................................... 3

Management’s Comments .............................................................................................. 3

Evaluation of Management Comments ........................................................................... 3

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Detailed Information .................................................................................... 9

   Unserved Communities Mostly Rural .......................................................................... 9

   Master Contracts for Broadband Expansion .............................................................. 10

   Wi-Fi at Post Offices.................................................................................................. 11

Appendix C: Management’s Comments ....................................................................... 15
21st Century Post Office:                                                                              DA-MA-12-002
 Aligning with the National Broadband
 Infrastructure Initiative

Introduction

To determine whether it is beneficial for the U.S. Postal Service to align with the
U.S. National Broadband Infrastructure Initiative, the U.S. Postal Service Office of
Inspector General (OIG) reviewed the technical and economic aspects of broadband
propagation. This is part of a series of reports addressing the 21 st Century Post Office.
See Appendix A for additional information about this self-initiated review that addresses
strategic risk.

In early 2009, Congress directed the Federal Communications Commission (FCC) to
develop a National Broadband Plan to ensure that every American has broadband
access. Congress also required this plan to include a detailed strategy for achieving
affordability and maximum use of broadband.1

To fulfill Congress’s mandate, the national plan, in part, seeks to ensure that the entire
broadband ecosystem (networks, devices, content, and applications) is healthy. The
plan suggests that government can influence the broadband ecosystem in four ways:

1. Design policies to ensure robust competition and, as a result, maximize consumer
   welfare, innovation, and investment.

2. Ensure efficient allocation and management of the assets that government controls
   or influences, such as spectrum, poles, and rights-of-way, to encourage network
   upgrades and competitive entry.

3. Reform current universal service mechanisms to support deployment of broadband
   and voice in high-cost areas, ensure that low-income Americans can afford
   broadband, and support efforts to boost adoption and utilization.

4. Reform laws, policies, standards, and incentives to maximize the benefits of
   broadband in sectors that government influences significantly, such as public
   education, health care, and government operations.

The FCC set a 10-year timetable for implementing the plan. Currently, parts of the plan
have been implemented, such as those for researching broadband implementation and
dispersing grants to state and private entities to further the development of middle-mile
broadband infrastructure and broadband education in unserved areas. However,
recommendations to expedite placement of wireless towers on federal government
property and buildings and to explore public/private partnerships to improve broadband
adoption have not yet begun to be implemented.2
1
  Such a strategy would enable the advance of consumer welfare, civic participation, public safety and homeland
security, community development, health care delivery, energy independence and efficiency, education, employee
training, private sector investment, entrepreneurial activity, job creation and economic growth, and other national
purposes.
2
  Recommendations 55 and 89 of the FCC National Broadband Plan.
                                                              1
21st Century Post Office:                                                                                DA-MA-12-002
 Aligning with the National Broadband
 Infrastructure Initiative



Conclusion

With a network of over 33,000 facilities nationwide, including rural areas that are
currently underserved by broadband providers, the Postal Service could influence the
broadband ecosystem by using its expansive footprint of properties to encourage
network upgrades and competitive entry, especially in unserved or underserved areas.

Internet Service Providers (ISPs) have provided thorough broadband coverage in the
areas of the U.S. that would garner economic profit. However, there are still unserved
areas within the U.S., mostly rural. Approximately 3 percent of all post offices nationally
lie in wholly unserved areas.3 Lack of broadband access for these post offices can
mean a diminished connection with the Postal Service operations network. Lack of
access for residents in these areas can create barriers to educational, cultural, medical,
and economic resources.

The private sector cannot change this broadband gap alone. The Postal Service could
assist the initiative through a public/private partnership with commercial ISPs. The
Postal Service is in a position to develop a comprehensive lease agreement to provide
Postal Service facilities and land for the expansion of the broadband infrastructure.
Offering a comprehensive lease would streamline the leasing process, enabling
interested telecommunications carriers to more easily use Postal Service facilities to
support their network sites through installation of network equipment.4 Such an
agreement would lower the cost of entry for ISPs into sparsely populated areas. A
public/private venture would bring the Post Office value cost curve down and make ISP
operations more affordable. These efforts would also provide the Postal Service a
moderate income stream upwards of $4.2 million annually.5 In addition, the Postal
Service could provide a community service by designating post offices in unserved
areas as Wireless Fidelity (Wi-Fi) hotspots,6 providing wireless broadband access to the
public to generate additional foot traffic and goodwill.




3
  Post offices tend to be in towns and rural towns are far more likely to have some form of broadband than the less
populated areas near and around them. As a result, a high percentage of post offices are in areas that are considered
served.
4
  Network equipment includes towers, base stations, and antennas.
5
  Concentrating solely on rural unserved areas, we calculated a very conservative lease revenue estimate based on
representative rural lease rates for the 1,000 post offices in unserved areas.
6
  Wi-Fi is a technology for wirelessly connecting electronic devices over a relatively short range using the Institute of
Electrical and Electronics Engineers (IEEE) 802.11 standard. IEEE 802.11 is a set of standards for implementing
wireless LAN computer communication in the 2.4, 3.6, and 5 GHz frequency bands.


                                                           2
21st Century Post Office:                                                     DA-MA-12-002
 Aligning with the National Broadband
 Infrastructure Initiative

Recommendations

We recommend the vice president, Facilities, explore partnerships with commercial
Internet service providers to increase broadband coverage in unserved areas by:

1. Offering a master lease agreement to Postal Service real estate.

2. Installing Wireless Fidelity hotspots in unserved areas.

Management’s Comments

Management was in general agreement that a public/private partnership could at some
point further the interests of the National Broadband Infrastructure Initiative. However,
management further clarified in correspondence received January 6, 2012 that they
disagreed with the first recommendation to increase broadband coverage in unserved
areas by offering a master lease agreement to Postal Service real estate. In addition,
they disagreed with the recommendation to install Wi-Fi hotspots in unserved areas.

Management further stated that the Postal Service already has a national agreement in
place with a wireless infrastructure company that has standard lease agreements in
place for wireless and ISPs. Management expressed the opinion that it is unrealistic to
expect rural communication tower development and subsequent coverage to be
enhanced by Postal Service-owned properties any further than its current and regular
course of dealings allows. Specifically, a recent review by the Postal Service
determined that, at this time, less than 100 facilities would be viable for communication
tower development. The locations identified would not enhance coverage in currently
unserved or rural markets. Because the return on investment for private companies is
typically unachievable in a rural market, the challenge is not making Postal Service
properties available; it is developing an economic model that is attractive to both the
infrastructure provider and the carrier end-user.

Consequently, it is management’s opinion that rural "Wi-Fi Hotspots," tower
development, and carrier co-location thereon can be furthered only with significant
alternative funding sources, including significant government subsidies. See Appendix C
for management’s comments in their entirety.

Evaluation of Management Comments

Management disagreed with our recommendations. We do not plan to pursue these
recommendations through the formal audit resolution process.

We understand that the Postal Service is currently offering Postal Service-owned
property for telecommunication leasing and we agree that further development of
broadband coverage in rural regions would require incentives to attract infrastructure
providers. However, we believe that offering a master lease agreement to providers
could be beneficial in developing such an economic incentive. Furthermore, we


                                            3
21st Century Post Office:                                                    DA-MA-12-002
 Aligning with the National Broadband
 Infrastructure Initiative

disagree that the Postal Service national agreement is equal to the master lease
agreement we recommended.

We examined the Postal Service review mentioned in management’s comments. This
review determined that less than 100 facilities would be viable for communication tower
development based on anticipated return on investment. This document further
supports the need for incentives to increase broadband propagation in unserved areas.

Using the master lease we recommended, an ISP can avoid the cost and effort of
negotiating individual leases for numerous sites, and could possibly receive preferred
lease rates. While reducing the prices for leases on government property may reduce
fees paid to the Postal Service, the decline in prices may also increase the number of
companies that acquire leases on government property. Also, our recommendation to
offer a master lease directly to ISPs would eliminate the need to work through a third
party to access the Postal Service properties or construct towers and thus, could
expand the potential pool of investors.

We agree that government funding would benefit the National Broadband Infrastructure
Initiative through tower development and Wi-Fi hotspot installation. Postal Service
comprehensive leasing can operate in conjunction with federal broadband infrastructure
integration programs such as the U.S. Department of Agriculture’s Rural Broadband
Loan Program. This program is designed to provide loans for funding the cost of
construction, improvement, and acquisition of facilities and equipment to provide
broadband service to eligible rural communities. We believe the Postal Service should
pursue discussions with the U.S. Department of Agriculture, the National
Telecommunications and Information Administration, and related government agencies
to determine whether such funding could be made available.




                                           4
21st Century Post Office:                                                                              DA-MA-12-002
 Aligning with the National Broadband
 Infrastructure Initiative

                                 Appendix A: Additional Information

Background

The American Recovery and Reinvestment Act (ARRA) of 20097 directed the FCC to
develop a national broadband plan ―to ensure that all people of the United States have
access to broadband capability and establish benchmarks for meeting that goal.‖ The
National Telecommunications and Information Administration (NTIA), in conjunction with
the FCC, defines ―unserved‖ by broadband as any community in which speeds of
3 megabits per second (mbps)/768 kilobits per second (kbps) are unavailable.8

President Obama set the goal of enabling businesses to provide high-speed wireless
services to at least 98 percent of all Americans within 5 years. The rollout of the next
generation of high-speed wireless, the fourth-generation or ―4G‖ technology leading
carriers are now deploying in the U.S., promises considerable benefits to our economy
and society. More than 10 times faster than current high-speed wireless services, this
technology promises to benefit all Americans; bolster public safety; and spur innovation
in wireless services, equipment, and applications. Private investments are extending 4G
to most of the nation, but are leaving some rural areas behind.

The Postal Service has a network of over 33,000 facilities nationwide. Due to declining
mail volume and the resulting financial condition of the Postal Service, facility
optimization has become a widely discussed topic. Through various optimization and
consolidation programs, the Postal Service is working to generate revenue and reduce
rent obligations and operational costs. To further the facility optimization goal, the Postal
Service is in a position to use its large facility footprint to support the expansion of
broadband networks.9 Broadband networks require land sufficient for housing the tower,
antenna, and installation of necessary backhaul10 for carrier-grade wireless
technologies.11 Illustration 1 demonstrates a broadband architecture with antennas and
a base station on a self-supporting mast located either on the building rooftop or
alongside the building.




7
  ARRA, Pub. L. No. 111-5, 123 Stat. 115, 516 (February 19, 2009).
8
  Refers to data transmission stream of 3 mbps per second downstream (from the Internet to the user’s computer)
and 768 kbps per second upstream (from the user’s computer to the Internet).
9
  Real estate that the Postal Service rents rather than owns may not be eligible if construction of towers and
subleasing is limited by lease agreement.
10
   The portion of a communications network that transmits data between end points (such as tower locations) and a
public Internet connection point or another dedicated network location.
11
   A network capable of providing service at a level that consumers expect from commercial carriers. A typical carrier
grade technology is Worldwide Interoperability for Microwave Access (WiMAX), a 4G wireless broadband technology.
It supports higher data rates than 3G technologies. In technical terms, WiMAX refers to IEEE standard 802.16, which
dictates the wireless delivery rate of 40 Mbit/s and 1GB using the newest IEEE 802.16M standard.


                                                          5
21st Century Post Office:                                                                            DA-MA-12-002
 Aligning with the National Broadband
 Infrastructure Initiative

                           Illustration 1 – Tower/Antenna Architecture




The concept of providing Postal Service facility space for installation of
telecommunications equipment is not new. The Postal Service currently has a master
contract with American Tower to sublease antenna space to wireless service providers.
Through this contract, the Postal Service is leasing to wireless providers such as AT&T,
Sprint, Verizon, Cingular, and T-Mobile. The Postal Service is using 58 of its facilities
nationwide to house 98 antennas, providing annual rent revenue of $726,376. In
addition, the Postal Service is currently in discussions with a communication technology
company to explore the possibility of leasing Postal Service property to
telecommunications providers for antenna usage.

The idea of Wi-Fi signal propagation is well-established. In 2007, Meraki, a cloud
networking company, set up indoor and outdoor wireless routers to offer public Wi-Fi for
homes, parks, and local businesses in San Francisco. To further propagate the wireless
signal, Meraki offered an inexpensive repeater12 to allow consumers and communities
to start creating their own networks.

Currently, 86 percent of public libraries nationwide provide Internet access to their
patrons. In addition, many coffee shops and fast food restaurant chains provide Wi-Fi
access to customers. Hotspots are considered a valuable productivity tool for students,
business people, and other frequent users of network services. A Wi-Fi hotspot can
supplement and/or substitute for a broadband internet connection at home or work.
Hotspots are especially valuable in providing broadband access to users who otherwise
would not have access to Internet connections due to location or cost. Unfortunately,
Wi-Fi network coverage is rarely found in rural areas. Consequently, wireless hotspots
are in demand.

Wi-Fi networks require a broadband high-speed Internet connection (cable or DSL13), a
router/access point/gateway device,14 and access to a computer (for configuring the
broadcast device). Some broadcast devices allow for the cable broadband to be
plugged directly into the back of the device. Others will require a modem. In this case,
12
   A network repeater is a device used to expand the boundaries of a Wi-Fi local area network (LAN). Meraki’s
repeater was offered at $49. An outdoor version with a range of up to 700 feet was also available for $99.
13
   Digital subscriber line.
14
   The hardware device that broadcasts the connection via radio waves to wireless enabled devices.


                                                         6
21st Century Post Office:                                                                     DA-MA-12-002
 Aligning with the National Broadband
 Infrastructure Initiative

the broadcast signal cable plugs into the modem and an ethernet cable connects the
modem to the broadcast device (see Illustration 2).

                                      Illustration 2 – Wireless LAN




Objective, Scope, and Methodology

Our objective was to determine whether it is beneficial for the Postal Service to align
with the U.S. National Broadband Infrastructure Initiative. The scope of the review is
Postal Service involvement in broadband propagation within the U.S. This is part of a
series of reports addressing the 21st Century Post Office.

We initially considered two approaches to the Postal Service assisting in the National
Broadband Infrastructure Initiative: 1) serving as an ISP, providing broadband service to
customers in unserved areas and 2) partnering with an ISP to provide space for
broadband tower placement in exchange for bandwidth usage for Postal Service
functions.

The Postal Accountability and Enhancement Act15 specifically states that the
Postal Service may only provide ―non-postal‖ services offered as of January 1, 2006.
Providing Internet service would qualify as a prohibited non-postal service, as the Postal
Service did not provide Internet service as of 2006. However, there is no law or postal
policy that would preclude partnering with an ISP to provide non-postal services to the
public. The Postal Service would facilitate the ISP's provision of services. The Postal
Service regularly enters into "strategic alliances" with private entities. A partnership with
an ISP could fall under this umbrella as long as the contract allows competition between
ISPs and does not provide the Postal Service with an unfair competitive advantage.
Consequently, we focused our review on the latter approach of a public/private
partnership.

15
     Postal Accountability and Enhancement Act, Public Law No. 109–435 (December 20, 2006).


                                                         7
21st Century Post Office:                                                           DA-MA-12-002
 Aligning with the National Broadband
 Infrastructure Initiative

To answer our objective, we researched the National Broadband Infrastructure Initiative,
broadband technology, and broadband implementation nationwide. The OIG employed
a third-party contractor, a management and technology consulting firm with specialized
technical expertise, to assess the feasibility and benefits of the Postal Service aligning
with the initiative. Specifically, we requested the subject matter expert to:

   Identify geographic demand for broadband Internet.

   Determine technical needs for the Postal Service’s involvement in the National
    Broadband Infrastructure Initiative.

   Analyze the economic and operational feasibility of the Postal Service’s involvement
    in the National Broadband Infrastructure Initiative.

We conducted this review from April 2011 through January 2012 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. As part of this review, we relied upon the work of a
management and technology consulting firm to provide technical data and analysis. We
discussed our observations and conclusions with management on November 8, 2011,
and included their comments where appropriate.

We assessed the reliability of Postal Service facility data by comparing a sample of data
from the electronic Facilities Management System database and the Facility Database
to verify accuracy. We obtained evidence of the qualifications and independence of the
consulting firm’s members. In addition, we assessed the reliability of the consulting
firm’s data by reviewing their research report and examining support documentation.
We determined that the data from the aforementioned sources were sufficiently reliable
for the purposes of this report.

Prior Audit Coverage

We did not identify any prior work that directly relates to the review objective.




                                              8
21st Century Post Office:                                                                    DA-MA-12-002
 Aligning with the National Broadband
 Infrastructure Initiative

                                    Appendix B: Detailed Information

Unserved Communities Mostly Rural

According to the FCC, 98.3 percent of urban populations nationwide currently have
access to broadband technology16; however, only 84.8 percent of rural populations
nationwide have access. This disparity is further illustrated by the broadband map
demonstrating the difference in broadband speed availability between rural and urban
areas within each state. For example, in California, over 31 percent more of the
population in urban areas have access to broadband than those in rural areas while, in
Florida, the availability gap between urban and rural areas is negligible (see Illustration
3).

         Illustration 3 – National Broadband Map: Difference in Speed Availability




16
     At download speeds of greater than 3 mbps and upload speeds of greater than 768 kbps.


                                                          9
21st Century Post Office:                                                                            DA-MA-12-002
 Aligning with the National Broadband
 Infrastructure Initiative

States with the greatest discrepancy in urban and rural area broadband availability are
shown in Table 1 below.

        Table 1 – States with Largest Discrepancy in Broadband Availability
                           Between Urban and Rural Areas
     Percentage of Discrepancy in
      Urban and Rural Broadband                          States
              Availability
                                    California, Alaska, Idaho, Indiana, and West
           Greater than 31%
                                    Virginia
                                    New Mexico, Oklahoma, Arkansas, Alabama,
         Between 17 and 30%
                                    Kentucky, Virginia, and Wisconsin


To determine how many Postal Service facilities are in areas defined as unserved by
broadband under NTIA's and the FCC's definition, we tasked the contracted subject
matter experts with sampling and analyzing the following representative states:

        Idaho and Wyoming: representative of largely rural northwestern states.
        Utah: representative of largely rural southwestern states.
        Maine: representative of largely rural eastern states.
        Maryland: representative of more densely populated eastern states.
        Alaska: representative of rural areas overall.

Using NTIA and Census Bureau data, along with a data set of all Postal Service
locations in the U.S., the contracted team was able to estimate the number of Postal
Service facilities in the unserved areas of those states. Extrapolation of the data
provided us with a nationwide estimate that approximately 3 percent of all Postal
Service facilities are located in unserved areas.

Master Contracts for Broadband Expansion

The Postal Service has the opportunity to offer a comprehensive lease agreement to
ISPs in the form of a master lease.17 Such an agreement would allow the lessee, under
the same terms and conditions as the original acquisition, to acquire any additional
Postal Service real estate for the installation of network equipment.

An ISP can avoid the cost and effort of negotiating individual leases for potentially
hundreds of sites, and would possibly receive preferred lease rates. A master leasing
process would have significant benefits beyond reducing ISP transaction costs. While
reducing the prices for leases on government property may reduce fees paid to the
Postal Service, the decline in prices may also greatly increase the number of companies
that acquire leases on government property. Postal Service comprehensive leasing can
operate in conjunction with federal broadband infrastructure integration programs such
17
  Agreement that allows a company to acquire equipment or real estate in multiple locations without having to
execute a new lease each time.


                                                         10
21st Century Post Office:                                                                                DA-MA-12-002
 Aligning with the National Broadband
 Infrastructure Initiative

as the U.S. Department of Agriculture’s Rural Broadband Loan Program. This program
is designed to provide loans for funding the costs of construction, improvement, and
acquisition of facilities and equipment to provide broadband service to eligible rural
communities.18 Such a loan program can increase the incentive for ISPs to enter rural
markets. In any case, the increased deployment of broadband should stimulate
investment and benefit society.

Establishing master leases directly addresses a recommendation made by both the
telecommunications industry and the FCC to reduce the complexity and shorten the
timeframe for federal facility licensing. In addition, it aligns with the National Broadband
Plan’s goal that the federal government ensures efficient management of assets by
developing contracts to expedite the placement of wireless towers on federal property
and buildings.

This comprehensive leasing scenario would demonstrate that the Postal Service is
responsive to the FCC’s goals to facilitate private sector investment and streamline the
process for expansion into previously cost-prohibitive rural areas. These efforts could
also provide the Postal Service a moderate income stream upwards of $4.2 million
annually.19

Wi-Fi at Post Offices

Because each Post Office facility is different, a Wi-Fi network would need to be
individually engineered for each site. A public Wi-Fi signal would cover the interior of the
facility and varying distances surrounding the building. Wi-Fi is a line-of-sight
technology, so obstructions such as buildings, hills, and trees would limit the signal
propagation. Signal reception is also influenced by the end user’s device. In areas with
no visual obstructions, a Wi-Fi signal could reach a mobile device .5 miles away, and
reach a fixed wireless device as far as 1.5 miles away.




18
   In addition, the Rural Broadband Loan can be used for the cost of leasing facilities required to provide service at
the broadband lending speed if such lease qualifies as a capital lease under Generally Accepted Accounting
Principles.
19
   If we concentrate solely on rural unserved areas, we can calculate a very conservative lease revenue estimate
based on representative rural lease rates for the 1,000 post offices in unserved areas.


                                                           11
21st Century Post Office:                                                      DA-MA-12-002
 Aligning with the National Broadband
 Infrastructure Initiative

Examples of the effects of terrain on signal propagation are illustrated by the following
post offices located in unserved areas:

   The Unalaska Post Office located at 82 Airport Beach Road, Unalaska, AK 99685;
    and the Dutch Harbor Post Office located at 1745 Airport Beach Road, Dutch
    Harbor, AK 99692 are just over 1 mile apart and are close to many of the town’s
    community anchor institutions. The hilly terrain diminishes the Wi-Fi signals to less
    than .5 miles. Illustration 4 provides a visual demonstration.

     Illustration 4 – Unalaska-Dutch Harbor Wi-Fi Maximum Signal Reach with
                                    Topography




                                             12
21st Century Post Office:                                                       DA-MA-12-002
 Aligning with the National Broadband
 Infrastructure Initiative



   The Fort Duchesne Post Office located at 7299 U.S. 40, Fort Duchesne, UT 84026,
    is in one of the residential developments, 1 mile north of the area’s larger residential
    development. The Post Office is on a flat terrain. A Wi-Fi device would provide signal
    coverage for the smaller residential area and the supermarket, approximately a .5
    mile-range. However, moderate tree cover would block the signal to the larger
    residential development and tribal offices. Illustration 5 provides a visual
    demonstration.

    Illustration 5 – Fort Duchesne Wi-Fi Maximum Signal Reach with Topography




The Postal Service may be able to provide a vital public service to residents who lack
broadband access and generate substantial goodwill. Particularly in unserved areas, the
Postal Service could provide Wi-Fi connections, allowing residents to access a basic
level of Internet connectivity similar to what is offered at coffee shops and public
libraries. The Postal Service could further expand this Wi-Fi hotspot model by partnering
with local community groups to expand the wireless coverage provided. The community
could purchase inexpensive, off-the-shelf equipment to extend the Postal Service’s
wireless signal into a community-wide network.

The goodwill created by this endeavor has the potential to attract partnerships with local
or national commercial ISPs. Such partnerships could be in the form of the
aforementioned master lease, with a donation of bandwidth for the community Wi-Fi or,
more simply, a donation of Internet service. Additional revenue for the Postal Service
could be generated through advertising as a part of the service provided. In terms of
economic feasibility, this model would require limited Postal Service investment to


                                             13
21st Century Post Office:                                                     DA-MA-12-002
 Aligning with the National Broadband
 Infrastructure Initiative

provide each participating Postal Service site with the necessary connectivity to
accommodate bandwidth demands.




                                            14
21st Century Post Office:                                      DA-MA-12-002
 Aligning with the National Broadband
 Infrastructure Initiative

                           Appendix C: Management’s Comments




                                          15
21st Century Post Office:                    DA-MA-12-002
 Aligning with the National Broadband
 Infrastructure Initiative




                                        16
